<html>
<title> - AN OVERVIEW OF THE NATIONAL SCIENCE FOUNDATION BUDGET FOR FISCAL YEAR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                  AN OVERVIEW OF THE NATIONAL SCIENCE
                 FOUNDATION BUDGET FOR FISCAL YEAR 2013

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       TUESDAY, FEBRUARY 28, 2012

                               __________

                           Serial No. 112-62

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-122PDF                 WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               MARCIA L. FUDGE, Ohio
RANDY NEUGEBAUER, Texas              BEN R. LUJAN, New Mexico
MICHAEL T. McCAUL, Texas             PAUL D. TONKO, New York
PAUL C. BROUN, Georgia               JERRY McNERNEY, California
SANDY ADAMS, Florida                 JOHN P. SARBANES, Maryland
BENJAMIN QUAYLE, Arizona             TERRI A. SEWELL, Alabama
CHARLES J. ``CHUCK'' FLEISCHMANN,    FREDERICA S. WILSON, Florida
    Tennessee                        HANSEN CLARKE, Michigan
E. SCOTT RIGELL, Virginia            SUZANNE BONAMICI, Oregon
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                     HON. MO BROOKS, Alabama, Chair
ROSCOE G. BARTLETT, Maryland         DANIEL LIPINSKI, Illinois
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       PAUL D. TONKO, New York
ANDY HARRIS, Maryland                JOHN P. SARBANES, Maryland
RANDY HULTGREN, Illinois             TERRI A. SEWELL, Alabama
LARRY BUCSHON, Indiana                   
DAN BENISHEK, Michigan                   
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas
















                            C O N T E N T S

                       Tuesday, February 28, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mo Brooks, Chairman, Subcommittee on 
  Research and Science Education, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    11
    Written Statement............................................    13

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written Statement............................................    15

                               Witnesses:

The Honorable Subra Suresh, Director, National Science Foundation
    Oral Statement...............................................    17
    Written Statement............................................    19

The Honorable Ray Bowen, Chairman, National Science Board
    Oral Statement...............................................    28
    Written Statement............................................    30

             Appendix I: Answers to Post-Hearing Questions

The Honorable Subra Suresh, Director, National Science Foundation    58

The Honorable Ray Bowen, Chairman, National Science Board........    72

            Appendix II: Additional Material for the Record

Response requested by Representative Andy Harris, Member, 
  Subcommittee on Research and Science Education, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    78

 
                  AN OVERVIEW OF THE NATIONAL SCIENCE
                 FOUNDATION BUDGET FOR FISCAL YEAR 2013

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2012

                  House of Representatives,
    Subcommittee on Research and Science Education,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mo Brooks 
[Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Brooks. The Subcommittee on Research and Science 
Education will come to order. Good morning. Welcome to today's 
hearing entitled, ``An Overview of the National Science 
Foundation Budget for Fiscal Year 2013.'' The purpose of 
today's hearing is to examine the Administration's proposed 
fiscal year 2013 budget request for the National Science 
Foundation.
    I now recognize myself for five minutes for an opening 
statement.
    I am pleased to welcome Dr. Suresh and Dr. Bowen to discuss 
NSF's priorities for fiscal year 2013.
    Before I hear from them I would like to make a few comments 
concerning the President's proposed fiscal year 2013 budget. 
From where I sit the President's fiscal year 2013 budget is an 
irresponsible, pie-in-the-sky wish list that fails to take into 
account America's deteriorating financial condition and seeks 
to pay for programs with money America simply does not have.
    Let me explain. America faces what may be its greatest 
financial threat in its history. In fiscal year 2011, America's 
revenues were $2.3 trillion, and our spending was $3.6 
trillion, yielding a $1.3 trillion deficit. Stated differently, 
36 cents of every dollar spent by American in fiscal year 2011 
was borrowed money. Under the President's guidance America has 
for the first time ever run three consecutive trillion dollar 
plus deficits. Last November America's accumulated debt blew 
through the $15 trillion mark. Some time this year America's 
accumulated debt will blow through the $16 trillion mark.
    Now, if you are like most folks, it is hard to grasp 
numbers that are in the trillions. Let me simplify the 
trillions for a moment. Imagine a family that has not been 
paying attention to its finances and has started to feel 
insecure about where they are. The mom and dad sit at the 
dinner table and go over their finances for the past three 
years. They tally up their average income and discover they 
have been earning $50,000 per year for each of those three 
years. They feel pretty good about that. Then they get to the 
expense side of the ledger. They add up their bills and 
expenses and discover that they have averaged spending $80,000 
per year for three years. Stated differently, they have been 
losing $30,000 per year for each of those three years.
    This $30,000 per year annual deficit would cause most 
families to shutter. They would worry about whether their house 
will be foreclosed or their cars repossessed. They would worry 
about whether they can avoid bankruptcy. As that husband and 
wife struggle with where to cut spending or whether one of them 
can get another job or work overtime, the wife picks up the 
Visa bill. She opens it. It is a bill for $320,000. Now, 
imagine how overwhelmed that couple must feel, how hopeless the 
situation may seem.
    Well, those numbers, $50,000 per year in income, $80,000 a 
year in expenses, and $320,000 in accumulated debt mirror the 
ratios of America's $2.3 trillion income, $3.6 trillion in 
expenses, and $15 trillion in debt.
    All America is is one very large family of 311 million 
citizens. The only substantive difference between the 
hypothetical family I just gave you and America is one of size. 
Yet the impact of an American insolvency and bankruptcy will 
have much greater catastrophic effects on all American 
citizens, which brings me to the President's proposed fiscal 
year 2013 budget.
    It does absolutely nothing to alleviate that threat or 
minimize the risk of an American insolvency or bankruptcy. 
Rather than cutting spending, the President proposes to 
increase spending by over $200 billion to $3.8 trillion or 
nearly a quarter of our gross domestic product, roughly 23.3 
percent. Under this President's budget America's gross national 
debt will increase from $15 trillion today to $26 trillion ten 
years from now and this accumulated debt includes taking into 
account the President's proposal for the largest tax increase 
in U.S. history.
    The President's fiscal year 2013 budget is simply not 
sustainable. It is not responsible. It is more of the same. It 
places America's future at risk. All of which brings us to 
today's hearing.
    America must figure out a way to better prioritize and 
leverage our precious and limited federal dollars. Today we 
will be examining the President's fiscal year 2013, budget 
request for the National Science Foundation, which totals $7.4 
billion, an increase of $340 million or 4.8 percent over the 
fiscal year 2012, estimate.
    While my colleagues and I disagree--excuse me, may disagree 
on the best priorities for federal research dollars, I am sure 
that we can all agree that support for basic research is 
important and essential to our economy. Basic research is an 
investment in America's future. It is a productive job creator. 
The fruits of that research create jobs and opportunities that 
oftentimes change our lives, but even this important endeavor 
must be undertaken in a fiscally-responsible way in our current 
economic climate.
    Through what many consider the gold standard of merit 
review processes, the NSF has played a vital role in funding 
basic research crucial to the economic security and 
international competitiveness of the United States for over 60 
years now. As most in this room know, the National Science 
Foundation is the primary source of Federal Government support 
for non-health-related research and development at America's 
colleges and universities.
    The Administration's budget request for NSF focuses on 
fostering the development of a clean energy economy, supporting 
future job creation through advanced manufacturing and emerging 
technologies, protecting critical infrastructure, promoting 
multidisciplinary research in new materials, wireless 
communications, cyber infrastructure and robotics, developing 
the next generation of scientific leaders through support for 
graduate fellowships and early career faculty, and advancing 
evidence-based reforms in science and mathematics education.
    While a nearly five percent increase for NSF in fiscal year 
2013 shows stronger fiscal restraint than the fiscal year 2012 
request at 13 percent, I remain concerned that our federal 
agencies still are not doing enough to encourage austerity and 
properly prioritize scarcer federal funds. It is the job of 
every Member on this Subcommittee to ensure that all federal 
investments serve to strengthen the economy. It is my hope that 
together we can work to achieve this goal, while at the same 
time exhibiting fiscal accountability.
    NSF has a long and proven track record, one in which we are 
all proud, and I have every reason to believe NSF will continue 
this good work with whatever budgets are forthcoming from 
Congress. I look forward to hearing the testimony to be 
presented today and thank both of you gentlemen for taking the 
time out of your very busy schedules to join us.
    [The prepared statement of Mr. Brooks follows:]
                Prepared Statement of Chairman Mo Brooks
    Good morning and welcome. I am pleased to welcome Dr. Suresh and 
Dr. Bowen to discuss NSF's priorities for fiscal year 2013.
    Before I hear from them, I would like to make a few comments 
concerning the President's proposed FY 2013 budget. From where I sit, 
the President's FY 2013 budget is an irresponsible pie-in-the-sky wish 
list that fails to take into account America's deteriorating financial 
condition and seeks to pay for programs with money America simply does 
not have.
    Let me explain. America faces what may be its greatest financial 
threat in its history. In FY 2011, America's revenues were $2.3 
trillion and our spending was $3.6 trillion, yielding a $1.3 trillion 
deficit. Stated differently, 36 cents of every dollar spent by America 
in FY 2011 was borrowed money. Under the President's guidance, America 
has, for the first time ever, run three consecutive trillion dollar 
plus deficits. Last November, America's accumulated debt blew through 
the $15 trillion mark. Sometime this year, America's accumulated debt 
will blow through the $16 trillion mark.
    Now, if you are like most folks, it is hard to grasp numbers that 
are in the trillions. Let me simplify the trillions for a moment. 
Imagine a family that has not been paying attention to its finances and 
is starting to feel insecure about where they are. The mom and dad sit 
down at the dinner table and go over their finances for the past three 
years. They tally up their average income and discover they have been 
earning $50,000 per year for three years. They feel pretty good about 
that. Then they get to the expense side of the ledger. They add up 
their bills and expenses and discover that they have averaged spending 
$80,000 per year for three years. Stated differently, they have been 
losing $30,000 per year for each of three years.
    This $30,000 per year annual deficit would cause most families to 
shudder. They would worry about whether their house will be foreclosed 
on or their cars repossessed. They would worry about whether they can 
avoid bankruptcy. As that husband and wife struggle with where to cut 
spending or whether one of them can get another job or work overtime, 
the wife picks up the VISA bill. She opens it. It is a bill for 
$320,000! Now imagine how overwhelmed that couple must feel. How 
hopeless the situation may seem.
    Well, those numbers--$50,000/year in income, $80,000 in expenses, 
and $320,000 in accumulated debt--mirror the ratios of America's $2.3 
trillion income, $3.6 trillion in expenses and $15 trillion in debt. 
All America is is one very large family of 311 million citizens. The 
only substantive difference between the hypothetical family I just gave 
you and America is one of size. Yet the impact of an American 
insolvency and bankruptcy will have much greater catastrophic effects 
on all American citizens, which brings me to the President's proposed 
FY 2013 budget. It does absolutely nothing to alleviate that threat or 
minimize the risk of an American insolvency or bankruptcy. Rather than 
cutting spending, the President proposes to increase spending by over 
$200 billion, to $3.8 trillion, or nearly a quarter of our gross 
domestic product (23.3 percent).
    Under this President's budget, America's gross national debt will 
increase from $15 trillion today to $26 trillion ten years from now, 
and this accumulated debt includes taking into account the President's 
proposal for the largest tax increase in U.S. history. The President's 
FY 2013 budget is not sustainable. It is not responsible. It is more of 
the same. It places America's future at grave risk. All of which brings 
us to today's hearing. America must figure out a way to better 
prioritize and leverage our precious and limited federal dollars.
    Today, we will be examining the President's FY 2013 budget request 
for NSF, which totals $7.4 billion, an increase of $340 million, or 4.8 
percent, over the FY 2012 estimate. While my colleagues and I may 
disagree on the best priorities for federal research dollars, I am sure 
that we can all agree that support for basic research is important and 
essential to our economy. Basic research is an investment in America's 
future. It is a productive, ``job creator''. The fruits of that 
research create jobs and opportunities that often-times change our 
lives, but even this important endeavor must be undertaken in a 
fiscally responsible way in our current economic environment.
    Through what many consider the gold-standard of merit-review 
processes, the National Science Foundation has played a vital role in 
funding basic research crucial to the economic security and 
international competitiveness of the United States for over 60 years 
now. As most in this room know, NSF is the primary source of federal 
government support for non-health-related research and development at 
America's colleges and universities.
    The Administration's budget request for NSF focuses on fostering 
the development of a clean energy economy; supporting future job 
creation through advanced manufacturing and emerging technologies; 
protecting critical infrastructure; promoting multidisciplinary 
research in new materials, wireless communications, cyber 
infrastructure and robotics; developing the next generation of 
scientific leaders through support for graduate fellowships and early 
career faculty; and advancing evidence-based reforms in science and 
mathematics education.
    While a nearly five percent increase for NSF in FY13 shows stronger 
fiscal constraint than the FY 2012 request at 13 percent, I remain 
concerned that our federal agencies still are not doing enough to 
encourage austerity and properly prioritize scarcer federal funds. It 
is the job of every Member on this Subcommittee to ensure that all 
federal investments serve to strengthen the economy. It is my hope that 
together we can work to achieve this goal, while at the same time 
exhibiting fiscal accountability.
    NSF has a long and proven track record, one in which we are all 
proud, and I have every reason to believe NSF will continue this good 
work with whatever budgets are forthcoming from Congress.
    I look forward to hearing the testimony to be presented today, and 
thank both of you gentlemen for taking the time out of your very busy 
schedules to join us.

    Chairman Brooks. The Chair now recognizes Mr. Lipinski for 
an opening statement.
    Mr. Lipinski. Thank you, Chairman Brooks, and I want to 
welcome back Dr. Suresh and Dr. Bowen.
    And certainly as the Chairman said, in this challenging 
fiscal environment it is our job to make tough choices and set 
priorities. I feel strongly we need to prioritize investments 
that deliver real returns to taxpayers and boost our economic 
competitiveness. As the chairman says, this is--the NSF 
certainly is a place that that happens.
    As a result, I am pleased that the Administration's fiscal 
year 2013 budget request continues to emphasize science, 
innovation, and STEM education generally and the National 
Science Foundation in particular.
    But I think it is also important for me to urge everyone to 
be realistic about the notion of doubling the NSF's budget and 
focus instead on maintaining a sustainable, predictable path of 
growth. While I do think that doubling funding would yield 
enormous dividends for our country, I think that we should all 
recognize that aspirations that ignore the reality of our 
budget deficit are not particularly helpful to the agency or to 
the scientific community.
    Predictability will help our research institutions to plan, 
while helping our scientists avoid the booms and busts that 
have driven some of our brightest minds out of the lab. In my 
view the President's fiscal year 2013 request for the NSF 
strikes a good balance.
    I have a few comments on specific programs and proposed 
activities.
    First, I am very excited to see the proposed expansion of 
the I-Corps Program. As I have told Dr. Suresh before, I 
strongly believe that this program embodies NSF's original 
mission of both promoting the progress of science and advancing 
the national prosperity. Let's not forget that second part, 
especially when we are looking to maximize efficiency of our 
federal investments.
    Although it is only one quarter of one percent of NSF's 
budget, I think this program will yield disproportionate 
benefits, helping turn NSF's research investments into jobs and 
encouraging both scientists and universities to push their work 
outside the ivory tower to the immediate benefit of all 
Americans.
    For my colleagues that haven't looked at this program in 
depth, it is important to note that we are talking about a 
stage of commercialization well before private sector financing 
gets involved. The goal of I-Corps is to educate scientists to 
help them establish the viability of an idea even before 
forming a new small business.
    Last month I was able to meet with Steve Blank at Stanford 
to learn more about his implementation of this innovative, 
potentially game-changing program. I look forward to working 
with the NSF as this program is expanded and improved.
    Second, I am pleased that for the first time in many years 
we are seeing growth in the education budget similar to that in 
the research budget. We will disagree over some of the 
particulars in the EHR request, including the 22 percent cut to 
the informal STEM education programs and flat funding for the 
NOYCE scholarships. But I think the overall increase is a well-
earned vote of confidence in the current leadership of EHR.
    There are many other interesting proposals in this budget 
request, including the increased focus on advanced 
manufacturing research that I called for in COMPETES, the 
secure and trustworthy cyberspace initiative that is another 
priority issue for me, and a joint effort between NSF and the 
Department of Education on math education. It is good to see 
that the request would also put all the MREFC projects back on 
track after a couple of years of significant cuts.
    I do have some concern about the Administration's proposals 
to hold NSF's operating budget flat. That seems like an odd 
place to start when in every other year in recent memory the 
agency has expressed concern about how thinly its staff has 
been stretched after Congress has flat lined the ops budget.
    In closing, I have to say that an increase in the budget 
request makes it easier for you to dream big and for me to 
offer mostly positive comments, but unfortunately, I think it 
is unlikely that Congress will be able to match your request 
when we eventually pass the budget. As I indicated at the 
outset, I believe that strong and sustained investments in the 
NSF STEM education and innovation generally are critical for 
our Nation's future.
    My colleagues in Congress have on a bipartisan basis 
historically agreed with me, and I hope that will continue to 
be the case. I think this type of an investment is critical to 
the future growth of our country. We cannot allow this to fall 
to the wayside.
    I thank both of you for, Dr. Suresh and Dr. Bowen, for your 
work. I look forward to your testimony and look forward to our 
discussion. Thank you.
    [The prepared statement of Mr. Lipinski follows:]
          Prepared Statement of Ranking Member Daniel Lipinski
    Thank you Chairman Brooks for holding this hearing and welcome back 
Dr. Suresh and Dr. Bowen.
    In this challenging fiscal environment it is our job to make tough 
choices and to set priorities. I feel strongly that we need to 
prioritize investments that deliver real returns to taxpayers and boost 
our economic competitiveness. As a result I am pleased that the 
Administration's FY13 budget request continues to emphasize science, 
innovation, and STEM education generally, and the National Science 
Foundation in particular.
    But I think it is also important for me to urge everyone to be 
realistic about the notion of doubling the NSF's budget, and focus 
instead on maintaining a sustainable, predictable path of growth. While 
I do think that doubling funding would yield enormous dividends for our 
country, I think that we should all recognize that aspirations that 
ignore the reality of our budget deficit are not particularly helpful 
to the agency or the scientific community. Predictability will help our 
research institutions to plan, while helping our scientists avoid the 
booms and busts that have driven some of our brightest minds out of the 
lab. In my view the President's FY13 request for the NSF strikes a good 
balance. I have just a few comments on specific programs and proposed 
activities.
    First, I am very excited to see the proposed expansion of the I-
Corps program. As I've told Dr. Suresh before, I strongly believe that 
this program embodies the NSF's original mission of both promoting the 
progress of science and advancing the national prosperity. Let's not 
forget that second part, especially when we are looking to maximize the 
efficiency of our federal investments. Although it's only about one 
quarter of 1 percent of NSF's budget, I think this program will yield 
disproportionate benefits, helping turn NSF's research investments into 
jobs, and encouraging both scientists and universities to push their 
work outside of the ivory tower to the immediate benefit of all 
Americans.
    For my colleagues who haven't looked at this program in depth, it 
is important to note that we are talking about a stage of 
commercialization well before private sector financing gets involved. 
The goal of I-Corps is to educate scientists to help them establish the 
viability of an idea even before forming a new small business. Last 
month I was able to meet with Steve Blank at Stanford to learn more 
about his implementation of this innovative, potentially game-changing 
program. I look forward to working with the NSF as this programs is 
expanded and improved.
    Second, I am pleased that for the first time in many years we are 
seeing growth in the Education budget similar to that in the Research 
budget. We will disagree over some of the particulars in the EHR 
request, including the 22 percent cut to Informal STEM Education 
programs and flat funding for the Noyce Scholarships, but I think the 
overall increase is a well-earned vote of confidence in the current 
leadership of EHR.
    There are many other interesting proposals in this budget request, 
including the increased focus on advanced manufacturing research that I 
called for in COMPETES, the Secure and Trustworthy Cyberspace 
initiative that is another priority issue for me, and the joint effort 
between NSF and the Department of Education on math education. And it's 
good to see that the request would put all of the MREFC projects back 
on track after a couple of years of significant cuts.
    I do have some concern about the Administration's proposal to hold 
NSF's operating budget flat. That seems like an odd place to start when 
in every other year in recent memory the agency has expressed concern 
about how thinly its staff has been stretched after Congress has flat-
lined the ops budgets.
    In closing, I have to say that the increase in your budget request 
makes it easier for you to dream big and for me to offer mostly 
positive comments. But, unfortunately, I think it's unlikely that 
Congress will be able to match your request when we eventually pass a 
budget. As I indicated at the outset, I believe that strong and 
sustained investments in the NSF, STEM education, and innovation 
generally are critical for our nation's future. My colleagues in 
Congress have, on a bipartisan basis, historically agreed with me, and 
I hope that will continue to be the case. I think this type of 
investment is critical to the future growth of our country.
    I thank Dr. Suresh and Dr. Bowen for being here today; I look 
forward to your testimony and our discussion.

    Chairman Brooks. Thank you, Mr. Lipinski. If there are 
Members who wish to submit additional opening statements, your 
statement will be added to the record at this point.
    At this time I would like to introduce our witnesses for 
today's hearing. Dr. Subra Suresh was nominated by President 
Obama and unanimously confirmed by the United States Senate as 
the Director of the National Science Foundation in September, 
2010. Prior to assuming his current role, Dr. Suresh served as 
the Dean of the School of Engineering and a Vannevar Bush 
Professor of Engineering at the Massachusetts Institute of 
Technology.
    Dr. Ray Bowen was appointed to the National Science Board 
in 2002 and reappointed in 2008. He was elected Chairman in 
2010. Prior to joining the NSB he served as President of Texas 
A&M and is currently President Emeritus and Professor Emeritus 
of Mechanical Engineering. Dr. Bowen is also a distinguishing 
visiting professor at Rice University.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which Members of the Committee will 
have five minutes each to ask questions.
    I now recognize our first witness, Dr. Subra Suresh. Dr. 
Suresh, you are recognized for five minutes.

              STATEMENT OF SUBRA SURESH, DIRECTOR,

                  NATIONAL SCIENCE FOUNDATION

    Dr. Suresh. Thank you, Mr. Chairman. Chairman Brooks, 
Ranking Member Lipinski, and Members of the Subcommittee, it is 
my privilege to be here with you today to discuss the National 
Science Foundation's fiscal year 2013 budget request.
    Today science and technology are the new frontiers of 
American prosperity. The Nation's well-being and global 
competitiveness depend more than ever before on the steady 
stream of new ideas and highly-skilled science, technology, 
engineering, and mathematical talent that the National Science 
Foundation supports and particularly the young researchers that 
NSF so skillfully nurtures.
    NSF supports the full breadth of science and engineering 
research and education. We seek emerging ideas with the 
potential to transform the world, establish new paradigms, and 
foster new industries. NSF has helped to make the U.S. an 
undisputed world leader in science, technology, and innovation. 
Our universities rank among the best in the world. Our 
scientists and engineers have led the world in discovery and 
innovation. Our transformative discoveries have created a 
vibrant private sector and great jobs.
    Worldwide frontier research and technological innovation 
driven by a creative and skilled science and engineering 
workforce are the new engines of economic growth. Science and 
technology are improving the prospects for economic prosperity 
and the rising standard of living around the globe.
    It is a measure of our success that other nations are 
emulating the NSF model. The U.S. can both be a partner and a 
leader in this global enterprise.
    The NSF budget request moves America forward by connecting 
the science and engineering enterprise with benefits for 
Americans in areas critical to job creation, a growing economy, 
and a higher standard of living.
    The Administration and Congress have conveyed a clear 
determination to build on the Nation's history of success in 
leading-edge discovery and innovation. That is the unmistakable 
message of the President's 2013 budget request for NSF of 
$7.373 billion, an increase of 4.8 percent. Bipartisan 
Congressional support for the 2.5 percent increase in our 2012 
budget reinforces that message.
    NSF has identified critical funding priorities that will 
provide long-term benefits for the Nation. As good stewards of 
the public trust, we have also made tough choices to reduce and 
eliminate lower priority programs, identify opportunities to 
leverage resources for maximum impact, and held the line on 
NSF's operating expenses.
    This budget presents a well-targeted portfolio of 
innovative investments that provides increased support for 
fundamental research in all fields of science and engineering. 
This core research, which constitutes the largest share of NSF 
expenditures, lays the foundation for progress in science and 
technology and enhances our ability to address emerging 
challenges.
    NSF investments in advanced manufacturing, clean energy 
technologies, cyber security, and STEM education will support 
the Administration's government-wide priorities in these 
critical areas. In 2013, NSF will support the cross agency 
advanced manufacturing, national robotics, and materials genome 
initiatives by investing in research that makes manufacturing 
faster, cheaper, and smarter.
    Working in concert with other federal agencies NSF will 
advance research to ensure that the Nation's computer and 
networking infrastructure are secure and reliable and to 
support a cyber security workforce. NSF will support clean 
energy research as a component of an initiative to address 
national challenges and environmental sustainability.
    The Administration's new K through 16 mathematics education 
initiative, combines NSF's expertise in mathematics education 
research with the Department of Education's ability to scale up 
successful programs at state and local levels. NSF's larger 
suite of educational investments builds on the recognition that 
science and engineering talent is the foundation of America's 
future. Areas of educational investments span early learning to 
college completion. NSF brings its strength in supporting 
fundamental research and education to each of these broad areas 
of collaboration.
    Mr. Chairman, Members of the Subcommittee, I hope my 
testimony conveys the Foundation's vital role in ensuring that 
America remains at the epicenter in research, innovation, and 
learning that is driving 21st century economies. More than ever 
the future prosperity and wellbeing of Americans depend on 
sustained investments in our science and technology.
    I will be pleased to answer any questions you may have. 
Thank you.
    [The prepared statement of Dr. Suresh follows:]
  Prepared Statement of Dr. Subra Suresh, Director, National Science 
                               Foundation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Brooks. Thank you, Dr. Suresh.
    I now recognize our second witness, Dr. Bowen, for five 
minutes.

  STATEMENT OF DR. RAY BOWEN, CHAIRMAN, NATIONAL SCIENCE BOARD

    Dr. Bowen. Chairman Brooks, Ranking Member Lipinski, and 
Members of the Subcommittee, I appreciate the opportunity to 
testify before you today in support of the National Science 
Foundation budget request for fiscal year 2013. I am Ray Bowen, 
Chairman of the National Science Board and President Emeritus 
of Texas A&M University. I am also a Distinguished Visiting 
Professor at Rice University.
    Before I begin my testimony, I would like to take a short 
moment to say a few words about the Board's working 
relationship with the NSF's senior management. Over the past 
year and a half, the Board has had the pleasure of working with 
our new Director, Subra Suresh. Dr. Suresh has brought fresh 
ideas to the Foundation, many of which are incorporated in the 
budget request before you. Board members appreciated having 
immediate access to the Director and all of his staff, and as a 
result we have developed a close working relationship. With the 
Board members representing the science, engineering, and 
education community around our country, we think this 
collaborative relationship is serving our Nation well.
    My testimony today will emphasize a growing concern of the 
Board concerning the Nation's science and technology 
enterprise. The Board has a 40-year plus history of 
investigating indicators that drive innovation and discovery 
through its biannual report to the Congress and the President 
called, ``Science and Engineering Indicators.''
    These footage have documented the critical nature of 
science and technology investments to America's long-term 
economic growth and quality of life. In the recently-released 
``Science and Engineering Indicators 2012,'' the R&D capacity 
trends demonstrate that nations worldwide are relying on 
innovation to drive progress. The data indicate that the United 
States remains a global leader in supporting science and 
technology research and development.
    But other countries are now heavily investing in science 
and technology, having realized the significant returns. As 
reported in the ``Indicator's 2012,'' the United States has 
lost 28 percent of its high technology manufacturing jobs over 
the last decade. The economic recession in 2001 and 2008 and 
more efficient manufacturing processes have no doubt 
contributed to this decline.
    But other contributing factors include the growth of 
foreign investments in research and development and resulting 
increase in foreign research and development capacity. While 
the U.S. remains the overall world leader in high-technology 
manufacturing, this lead is shrinking. The NSF budget request 
for fiscal year 2013 reflects a clear understanding that 
investments in science, technology, and education are critical 
investments that will continue to build America far into the 
future.
    For the budget request before you today one specific area I 
would like to highlight and that is the Foundation's Agency 
Operations and Award Management account. The AOAM account 
provides the fundamental framework through which the 
Foundation's science and engineering research and education 
programs are administered. AOAM funding covers NSF's 
scientific, professional, and administrative workforce, the 
physical and technological infrastructure necessary for a 
productive work environment, and the essential business 
operations critical to efficiently managing NSF's 
administrative processes. To sustain its excellence and its 
efficient management, the Board fully urges full funding of the 
NSF's AOAM account.
    Over its 60-year plus history, NSF's investments have 
unwritten a wealth of research that has directly and indirectly 
benefited the American economy and the general public, much of 
which--there is much that remains to be done. I understand that 
investments in science and technology compete with a host of 
other deserving funding priorities, but maybe attempting to 
forego the long-term investments in the face of short-term 
challenges, neglecting the scientific research and education 
now may have serious consequences to our country as the data 
gathered from our ``Indicators'' report illustrates.
    On behalf of the Science Board and the STEM research and 
education communities I would like to thank Members of this 
Subcommittee for your long-term support of the National Science 
Foundation. We look forward to continuing that long-term 
relationship.
    Thank you.
    [The prepared statement of Dr. Bowen follows:]
 Prepared Statement of Dr. Ray Bowen, Chairman, National Science Board


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Brooks. I thank the panel for their testimony. 
Reminding Members that Committee rules limit questioning to 
five minutes.
    The chair at this point will open the round of questions. 
Normally the chair would recognize himself for the first five 
minutes, but in this instance I am going to swap times with Mr. 
Hultgren from the great State of Illinois.
    Mr. Hultgren. Thank you so much, Chairman, and thank you 
both for being here. I really appreciate that.
    Dr. Bowen, I just wanted to start out, I have got several 
questions for both of you, so I wanted to go through some 
things kind of quickly.
    You testified that the growth of foreign investment and R&D 
and resulting increase in foreign R&D capacity are contributing 
factors to the loss of 28 percent of domestic high technology 
manufacturing jobs over the last decade. Would you agree that 
there are some other contributing factors, many of which may be 
more critical of the loss of manufacturing jobs, or any jobs 
for that matter overseas? And wondered, R&D spending aside, 
what do you think is the major obstacle to American 
competitiveness today?
    Dr. Bowen. There are many factors, and it is much more 
complicated than my short statement would summarize. I come 
from a world where we invest a tremendous amount of confidence 
in the Nation's ability to respond with innovation given the 
fundamental investments in basic science. It is a long-term 
situation, and I realize there are short-term issues that need 
to be addressed.
    I would make a plea for the support for the long-term basic 
research. I think it will pay off to our Nation.
    Mr. Hultgren. I agree with you. I am a huge supporter of 
basic scientific research. I feel like if we fail to do that we 
absolutely are failing our future as we do that.
    Dr. Suresh, I wonder if I could ask you, NSF has been 
identified as the ``only federal agency dedicated to the 
support of basic research as we are talking about in education 
and all fields of science and engineering.'' Do you believe 
that some of the more applied areas of research identified in 
America COMPETES Reauthorization Act, coupled with multiple 
Administration applied priorities for NSF for fiscal year 2013 
budget request dilutes the funding for basic fundamental 
research, and wonder if you could please explain, and also Dr. 
Bowen, I would love to get your thoughts on that as well.
    Dr. Suresh. So as you pointed out, Mr. Hultgren, NSF funds, 
NSF focuses primarily on basic science and engineering, but we 
also walk a very fine line between supporting core research, 
fundamental research, and research that may have a practical 
application where we provide basic knowledge, basic tools, 
basic technologies.
    A very good example is robotics. If you take the National 
Robotics Initiative, which is about $70 million or so for the 
year, NSF's investment is about $28 million on an annual basis. 
That investment goes from mathematics to computer science, 
optimization, social and behavioral sciences, human machine 
interactions so a variety of fundamental tools, processes, 
technologies and basic understanding that the National Robotics 
Initiative and NSF foster. So that is a very good example of an 
interplay between basic research and what may seem like an 
applied area.
    Another example that I would like to point out going back 
to your first question for Dr. Bowen, in the 1970s NSF funded 
mathematical and process modeling, which at that time was 
viewed by even some of the mission agencies, and industries, as 
too academic. That support in the 1970s led to what we now know 
as rapid prototyping, which had a huge impact on American 
leadership in manufacturing in the '80s and '90s.
    I think at NSF the boundaries are blurred between the 
continuum of basic research all the way to what may evolve to 
be a spectacular innovation.
    Dr. Bowen. If I could just add a small footnote to this, 
you asked very specifically do we think that the applied 
research investments are in some sense competitive with basic 
research. I would like to say no because I think that they play 
well together to reinforce each other. There are compromises 
and challenges in the budget that all of us understand. The one 
benefit of the basic research which we celebrate in my life as 
a university professor is the creation of the human resource, 
the young people that are going to invest long careers, both in 
applied as well as fundamental kinds of activity.
    So I, again, would support that as well.
    Mr. Hultgren. And my fear is, again, that we are diluting 
that priority of basic scientific research that all of us are 
talking of how important that is.
    One last question. Dr. Suresh, you described the new I-
Corps initiative as ``a public-private partnership to 
accelerate the movement of research results from the labs to 
the marketplace by establishing opportunities to assess the 
readiness of emerging technology concepts for transition into 
the valuable new products or into valuable new products.'' 
Please walk us through I-Corps, specifically how awardees are 
selected, how you avoid picking winners and losers, which is 
something I am very concerned about, and perhaps most 
importantly how this program falls within the basic research 
mission of the Foundation.
    Dr. Suresh. I will be very happy to answer that, Mr. 
Hultgren. NSF supports approximately $6 billion of basic 
research every year, and it is our desire and our mission not 
to deviate from that goal. Having said that, NSF historically--
going back to the 1970s--has taken the product or the output of 
fundamental research and extracted out of that the maximum 
value. A very good example is the SBIR Program. NSF was the 
first federal agency to start an SBIR Program. Now there are 
nine federal agencies to do that.
    What we do in the I-Corps is at the end of an NSF-funded 
project or very near the end of an NSF-funded project, we ask 
the community to provide ideas on how to take the output of 
NSF-funded fundamental research, the basic discovery, and by 
giving the principle investigators a small amount of money over 
a short period of time, ask them does this basic discovery have 
the opportunity to go beyond publication, beyond a patent, 
perhaps to lead to a product, a process, a software, a tool 
that can have near-term or long-term benefit to the society.
    And as I think the Ranking Member just mentioned, the I-
Corps budget by design is a tiny, tiny fraction of the NSF 
budget, and I-Corps comes well before the foundation of a small 
business. So it is even more academic, more pre-business than 
SBIR. So it is well before the valley of death and what we call 
a ditch of death where ideas may not see the light of day 
because there is no opportunity. So that is the first goal of 
I-Corps.
    It is absolutely not our intention to pick winners and 
losers. I-Corps does business the same way NSF does business. 
We want to fund the best ideas and the best people in the most 
transparent way through a gold standard peer review process, 
and that is what I-Corps will continue to do.
    In the first round we funded 21 programs, and all initial 
indications are a good subset of those programs will go much 
beyond what I-Corps had intended. So we are very pleased with 
the initial indications.
    The other idea of I-Corps is the vast majority of NSF-
funded institutions in the country at the present time, either 
because of the geographical location or because of the lack of 
infrastructure, are not part of the innovation ecosystem of the 
country. They probably are isolated. They may not have the 
innovation infrastructure in their institutions. They may not 
have access to venture capitalists. Given that NSF in 2013 will 
support 285,000 individuals in the country to the tune of $6 
billion, and we touch nearly 2,000 institutions in the country, 
we have an opportunity to use our stature, our reach, our scope 
to create a virtual infrastructure that brings together not 
only academics but also industry leaders, people who have had 
spectacular successes through innovation, and equally people 
who have failed so that we can learn lessons from them.
    So and I believe that innovation is a contact sport, and by 
bringing our NSF-funded community, including students, in touch 
with this national ecosystem, we believe that we can extract 
much more value out of NSF investments into basic science and 
engineering.
    Mr. Hultgren. Again, I thank you both for being here. I 
just want to continue to work together, again, to have that 
focus of protecting, and I hear it from both of you, protecting 
that commitment to basic scientific research, especially in a 
time where dollars are so tight, to make sure that the priority 
is still there. So thank you.
    Chairman, thank you so much for your graciousness, too, in 
allowing me to go over and allowing me to go first. So thank 
you so much. I yield back.
    Chairman Brooks. Thank you, Mr. Hultgren.
    The chair now recognizes Mr. Lipinski of the great State of 
Illinois.
    Mr. Lipinski. Thank you, Mr. Chairman. I think there must 
be something in the water there because the same two topics, 
manufacturing and I-Corps, that Mr. Hultgren had asked about I 
also want to ask some questions about.
    I want to start with I-Corps, and perhaps this is an area 
that the chairman would considering having a hearing on so we 
can all learn more about what the I-Corps Program is and what 
the I-Corps Program is doing. I think the key, Dr. Suresh, you 
had--your experience with the Deshpande Center at MIT and for 
me one of the bottom lines with this is we have a lot of people 
doing great research with, you know, NSF funding across the 
country, and scientists are not always the best at knowing how 
to take those ideas and create a business. And I think that is 
what I-Corps is trying to do to help them to be able to do 
that, give them the education, the contacts to be able to do 
that, and I think it is a really, as I said, potentially game-
changing program.
    I just wanted to ask briefly of Dr. Suresh, if you could 
talk a little bit about how you are going to expand this 
program, including where does private funding come into this, 
private investment since this is public-private?
    Dr. Suresh. Thank you, Dr. Lipinski. So in the inner shell 
we wanted to start small, and we wanted to start with very 
small investments and a small cohort of funded projects last 
summer. The initial private engagement came from two non-profit 
foundations. One as you mentioned, the Deshpande of 
Massachusetts, and the other, the Kauffman Foundation of Kansas 
City. The Kauffman Foundation, as you know, has a lot of 
experience in this phase, and our idea would be to take the 
best practices of going from fundamental scientific discoveries 
to still staying in the technology development regime, not 
going to the business side but within that space try to 
identify how the ideas can move beyond publication or basic 
discovery.
    So intentionally we have put in about $50,000 for initial 
awards. For the first 12 months our goal is to fund about 100 
projects or so. So we announced 21 projects early on and used 
the RAPID mechanism so that we can identify them very quickly. 
RAPID mechanism is a mechanism that NSF has used effectively 
for quite some time. And we will have a second cohort of about 
25 projects that will be announced before too long. So that is 
one part of it.
    The other part is that our studies state we would like to 
have regional nodes of institutions that engage, that not only 
provide data expertise to the I-Corps Project as a virtual 
national network, but they will also help support other 
institutions.
    The third part of the I-Corps mechanism is to develop a 
national cohort of mentors, maybe about 100 mentors or so, who 
will be regionally distributed and distributed in terms of 
their technological expertise. They will play a mentoring role 
to especially young faculty members at universities across the 
country.
    The fourth component of this is that we will, using NSF's 
reach across the country and history and visibility, we would 
hope to bring NSF PIs in contact with leaders in industry, 
including small businesses from around the country. We have a 
variety of programs at NSF, the SBIR Program, Engineering 
Research Centers, IUCRCs, Partnership for Innovation. So all 
these programs can be leveraged to enhance the potential 
success of I-Corps.
    Last but not least, one of the components of I-Corps is an 
educational experience. We have, as you mentioned, funded a 
center on innovation, especially at the undergraduate level, 
teaching entrepreneurship at Stanford University. We initially 
started with that mechanism to provide instructional 
opportunities and educational opportunities for I-Corps 
grantees to learn more about what it takes to go beyond just 
development of technology--how to pay attention to other 
factors that are critically important for the success of their 
innovation.
    Mr. Lipinski. Thank you, Dr. Suresh, and I am actually out 
of time now. I just want to say I think the great potential for 
this being--I-Corps being a feeder for NSF's SBIR Program is 
definitely a great possibility.
    With that I yield back. Maybe we will have a second round 
of questions I can get Dr. Bowen the advanced manufacturing.
    Chairman Brooks. Certainly, Mr. Lipinski, time permitting 
we will do that.
    Let me now at this point go into the Chairman's comments 
and questions.
    I want to emphasize that I have the highest degree of 
confidence in both Dr. Suresh, having visited the NSF, Dr. 
Bowen, in your desire to further basic research and America's 
intellectual capacity in that regard.
    At the same time I have to temper that somewhat, though, 
with the very difficult financial condition our country is in. 
I have a background in economics, and I want to assure you that 
if we continue as a country on this path, there is 100 percent 
certainty that we will face a national insolvency and 
bankruptcy.
    Hence, we have got to do everything we can to change the 
path that we are on. You have seen what is going on in Athens, 
Greece, Italy, and other nations around the world who are more 
advanced towards this insolvency than we are, and so everything 
we do has to be tempered in that regard.
    To give you an idea of the risk to the National Science 
Foundation, which, again, I hold in very high regard, should 
there be this insolvency and bankruptcy, worse case scenario 
you all would be zeroed out because the Federal Government 
simply would not have the funds if other items, national 
defense, Medicare, Medicaid, Social Security ended up being the 
highest priorities of the Federal Government.
    If just your share of the deficit were imposed on you, that 
would mean a cut of 36 percent in National Science Foundation 
funding. That is definitely not a good thing for the progress 
of our country. If I were in charge, and I am not, I am one 
person on, you know, a little pawn on a very large chessboard 
as seemingly most freshmen Congressmen are, you know, I would 
look at things like foreign aid. It is nice to help your 
friends and neighbors around the world, but at the same time 
you have to get your own financial house in order. And I 
mention this just as an example of priorities, but direct and 
indirect foreign aid is in excess of $60 billion. That is 
almost ten times what we spend on productive things like the 
National Science Foundation, and I use that as a comparison 
point.
    So if I were in charge and able to cut elsewhere and 
reprioritize, I would be mildly surprised that you were asking 
only 4.8 percent increase in your budget. I would certainly 
strive for more, particularly in the context of the 
international competition that we face with basic research and 
how some of our competitor nations are seeking to strive to be 
in front of the United States of America on technological 
advances.
    Certainly I say that with the community I come from as a 
background item. I am from Huntsville, Alabama, where we have a 
very high concentration of engineers, Ph.D.s, scientists, 
mathematicians, physicists, you name it. Huntsville basically 
being the birthplace of America's space program and also if you 
are familiar with the Gee Whiz Bang High Tech weaponry you see 
on TV when we are engaged in conflicts around the world, well, 
most of those are born or created or contracted for out of 
Huntsville, Alabama. So we understand in my community the 
importance of basic research and the value there of.
    That having all been said, Dr. Suresh, this question is for 
you. I applaud the Foundation for identifying programs for 
consolidation or elimination totaling $67 million. However, 
that is less than one percent of your current budget.
    Given our current economic situation and when your budget 
request is asking for an almost five percent increase, are 
there other programs that are right for elimination, 
consolidation, or reduction? And what steps is the Foundation 
taking to make these fiscally-responsible changes?
    Dr. Suresh. Thank you, Mr. Chairman, for your question.
    NSF is a $7 billion agency with an overhead of six percent. 
It is an extremely lean, lean organization. If we cut anymore 
in this organization, it will go from lean to anorexic, and I 
think we are under danger of that. So that is the first point I 
would like to make.
    The second point you heard not just from me before but from 
my predecessors, previous directors of NSF repeatedly, that NSF 
staff are extremely overworked at a time when the proposal 
pressure is very large. Last year we handled in excess of 
55,000 proposals, and given that extreme overload, we managed 
to not only handle this and keep NSF and the scientific 
community at the forefront without any increase in workforce. 
In fact, even though we had cut $67 million, it has been 
extremely painful for us to see that we have to hold the line 
on the AOAM budget for fiscal year 2013. That effectively 
reflects a cut in our budget, especially at a time our staff 
are overworked. As Dr. Bowen mentioned it is a very important 
item. It is the backbone of all our activities.
    We have taken great pains to go through the budget very, 
very carefully, put investments in areas where we can keep the 
American scientific enterprise and the workforce at the 
forefront while trying to be as fiscally responsible as 
possible. And so this is, this budget reflects that sentiment.
    Chairman Brooks. Thank you, Dr. Suresh. I would encourage 
you to continue to examine the NSF expenditures to see if there 
are any other duplications or wastes that can be ascertained, 
again, in light of the budget circumstances we face.
    I see I am over time, but inasmuch as I am going to allow 
others to have second rounds of questions, I am going to ask 
one more before I defer to the next Congressman.
    Dr. Bowen, as I mentioned, Congress is faced with many 
difficult funding decisions in our current economic situation. 
Every committee is hearing similar pleas from education to 
transportation and from energy to defense. Federal funding cuts 
are likely a reality over the next few years.
    How would you suggest we look at reigning in government 
expenditures across the board, and how do we prioritize 
programmic funding for the Foundation?
    Dr. Bowen. Thank you. Your question has broad dimensions, 
and it is a complicated one. It is one that we on the Science 
Board discuss among ourselves frequently. We are very pleased 
in the year and a half that Dr. Suresh has been our director 
that he came on board addressing that same kind of concern, and 
he is looking seriously across the Foundation at all of its 
programs trying to set priorities.
    In some measure while $7 billion is a huge amount of money 
for small activity, and we think, in fact, we produce a large 
result, other major possible consequences are the kinds of 
investments that we have been allowed to make throughout our 
history.
    So we would always plead that we would be allowed to 
continue that, but if it were to be the case that we had to 
come back with a more difficult budget situation than currently 
is present, the Foundation and the Board itself would work 
diligently to sort of set those priorities, and we would be 
reinforcing the already serious background work our director 
and his senior staff have done. I don't have the simple 
solution in terms of the shape that might actually take, but, 
in fact, you can depend on full cooperation and energy of the 
Board to work with the Foundation to achieve whatever 
parameters are set for us in terms of our budget.
    Chairman Brooks. Thank you, Dr. Bowen.
    At this time the Chair recognizes Mr. Tonko of New York.
    Mr. Tonko. Thank you, Mr. Chair. Dr. Suresh, for many 
students, community colleges are the gateway to higher 
education, affording them the most, the greatest opportunity 
economically for that stretching of their education career. And 
community colleges then also provide them that step to the 
four-year university. They have also had a long history of 
training and retraining people to allow them to upgrade their 
job skills.
    Which of the NSF education initiatives provide support for 
our community colleges?
    Dr. Suresh. There are a number of activities that we have, 
but one of the programs that specifically targets community 
colleges is the ATE Program with a request--budget request in 
2013 of $64 million. ATE stands for Advanced Technological 
Education, and so that is one program that I want to mention.
    The other broader program is the EPSCoR Program because in 
many of the EPSCoR states, perhaps community colleges, are more 
of a gateway to the educational enterprise for the citizens. 
That is another vehicle that we have. So those are two examples 
that I can give you.
    Mr. Tonko. And the NSF Innovation Corps Program sounds 
similar to the mission of the Small Business Innovative 
Research Program, SBIR. Can you discuss the relationship 
between the two programs so that we can better understand the 
separate issues they are designed to address?
    Dr. Suresh. I will be happy to. The Innovation Corps 
Program is designed in a space that comes way before a small 
business is formed. Our goal for the Innovation Corps program 
solicitation is to address those projects that have just 
completed or that are about to complete an NSF-funded basic 
research effort. So we give them a very small amount of money, 
something on the order of about $50,000 for two months and ask 
them to look at what is the potential for the basic discovery 
to go beyond just a basic discovery.
    And this comes way before SBIR. So our hope would be one of 
the metrics of success for the Innovation Corps would be that 
many of the I-Corps projects would matriculate to an SBIR 
application, not just at NSF but even at other federal 
agencies. Maybe they will receive VC funding or some other 
venue.
    So that is one of the goals. So the Innovation Corps is 
much more towards basic research than the SBIR Program.
    Mr. Tonko. Okay, and then when you talk about research, I 
noted that NSF has allocated like 300 million toward clean 
energy research, and I am pleased to see our President is 
focusing on efficiency and clean energy because in my opinion 
energy efficiency ought to be our field of choice. So where--
can you tell us how you are coordinating with the Department of 
Energy on these research programs as they relate to clean 
energy?
    Dr. Suresh. So we have frequent conversations not just with 
Department of Energy, with other federal agencies. There are a 
number of mechanisms that we have. One vehicle is through the 
initiatives in which we co-fund. We have frequent 
conversations. Our program officers have a lot of frequent 
contact with program officers from our sister agencies in 
Washington.
    The other mechanism we have is the National Science and 
Technology Council, which I co-chair along with Dr. Francis 
Collins from NIH and Dr. Carl Wieman from OSTP, the Committee 
on Science. The Committee on Science is a forum that brings 
together principals from many different agencies in Washington, 
and that is where we compare notes.
    With respect to clean energy and the NSF context, there is 
always a basic research--primarily a basic research component 
of this. Clean energy could mean for us, for example, new 
materials to design a panel for solar energy, or it could be 
new material for solar cells. It could involve new engineering 
models to understand fluid mechanics, whether it is wind or 
water and so forth. So NSF's focus is always basic science, 
even in the clean energy context.
    One other point I would like to make is NSF is unique in 
that it supports all fields of science and engineering, so as 
an agency we are uniquely positioned, especially in the energy 
space, to bring in perspectives from social, behavioral, and 
economic sciences to bear on perspectives from natural 
sciences. And that interplay is very unique and very important, 
and NSF plays a very critical role. This is something that we 
have talked to our colleagues in the Department of Energy about 
how we can collaborate.
    Mr. Tonko. Thank you, Dr. Suresh, and I believe I am out of 
time, so thank you, Mr. Chair.
    Chairman Brooks. Thank you, Mr. Tonko.
    The Chair next recognizes the Chairman of the Science, 
Space, and Technology Committee, Mr. Hall, for remarks.
    Chairman Hall. Mr. Chairman, thank you. I will be very 
brief because I don't know what remarks have been made or 
answers given, but I just want to thank you and for whoever 
selected these two gentlemen here. It is the best job of 
selecting I have known in a long, long time. I know to have the 
director of the National Science Foundation here and I thank 
you for your recent letter of support, and of course, Ray 
Bowen, I have known him and known of him forever, and that is a 
long time for a guy like me. But he was President of Texas A&M, 
and he is now associated with Rice University. I probably--I 
could have got into A&M, might could have got out, but I 
couldn't even get in Rice University. But you do a good job for 
us, and you represent us well, and thank you for all you have 
done for our state and for education and for the Nation.
    Mr. Chairman, thank you for letting me do that. I yield 
back.
    Chairman Brooks. Certainly, Mr. Chairman, and we also want 
to welcome Texas A&M to the conference of football champions, 
the SEC.
    With that I recognize another Member from the family of the 
Southeastern Conference, Mr. Palazzo of Mississippi.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Dr. Suresh, last year the budget request for Science, 
Engineering, and Education for Sustainability SEES portfolio 
was 998 million. This year the request is 202.5 million. The 
fiscal year 2012 request estimated spending on SEES for fiscal 
year 2011 to be 660 million. The fiscal year 2013 request 
reflects fiscal year 2011 actual spending to be 87.96 million 
or 572 million less than the estimated and the previous year. I 
know that was a lot of numbers. Hopefully you followed.
    Last year the program's mission was ``to advance climate 
energy science engineering and education to inform the societal 
actions needed for environmental economic sustainability and 
sustainable human wellbeing.'' For fiscal year 2013, you 
described the program as having a targeted mission to ``promote 
innovative interdisciplinary research to address pressing 
societal issues of clean energy and sustainability.''
    I do not believe ``climate change'' appears anywhere in the 
fiscal year 2013 budget request relative to the SEES portfolio. 
Well, I can assure you that I would be very pleased to see the 
Foundation make such a fiscally responsible decision by 
reducing requests for spending on these activities by more than 
half a billion dollars. I am certain this is probably not the 
case.
    Could you please explain this drastic change for the SEES 
portfolio? Share with us how NSF is now capturing the funding 
for climate-related research.
    Dr. Suresh. Thank you, Mr. Palazzo, for your question. So 
the SEES portfolio that was originally proposed in the fiscal 
year 2012 budget request to Congress, of course, was predicated 
upon the assumption that NSF budget for fiscal year 2012 would 
be $7.8 billion. It turned out, as you know, to be about $7.03 
billion.
    Sustainability is one of the major issues that we face as a 
race, human race, and sustainability has many dimensions to 
this. We re-baselined the SEES portfolio through very careful 
planning during the course of last year. In fact, the 2013 
budget request entails about a $46 million increase over the 
2012 current plan. And in the 2013 SEES portfolio we have a 
variety of activities that will involve coastal regions, the 
arctic coastal regions. We will have sustainable chemistry, 
computational and cyber-enabled mechanisms to facilitate SEES. 
Things like ocean acidification, rising sea levels. So whether 
they are explicitly or implicitly linked to a climate change or 
not, these are issues that involve societal global change, and 
it is very important that we understand the science, 
engineering, and education related to sustainability.
    So the re-baselined budget for SEES for 2013 is $202 
million as you had indicated.
    Mr. Palazzo. I may be stepping off here. Are you familiar 
with the Restore Act? You are probably familiar with the BP Oil 
spill from about two years ago this April. The President or the 
Secretary of the Navy actually led up an effort in that regards 
to basically from all the pollution and penalty money, that 80 
percent of that should be returned back to the Gulf states that 
were affected due to the oil spill, and I know that NSF, and 
you are talking about sustainability and things of this nature, 
the oceans. The Gulf of Mexico is probably one of the most 
overlooked bodies of water but one of the most tremendous in 
what it returns to our Nation in terms of oil and gas 
production as well as some of the best seafood in the world. I 
think we produce over one-third of it in the Gulf of Mexico.
    Do you think that is a good thing is to take the 80 percent 
and push it, I mean, the Secretary of the Navy said that 
several reports, conservationists, environmentalists, and 
others would like to see this happen. I mean, you never seen 
people in the left and the right support a bill to return not 
taxpayer funds but penalty money back to the Gulf Coast region 
so they can begin their long-term economic and environmental 
recovery.
    Just any thoughts on that? Have you been following it, and 
would you agree that that is probably a better use of the money 
instead of coming up here to the U.S. Treasury and 
disappearing?
    Dr. Suresh. Well, first of all, let me say, Congressman 
Palazzo, that when the Gulf Oil spill took place, NSF was there 
immediately. In fact, we assisted, we had rapid funding 
mechanisms to make sure that American scientists had an 
opportunity to go right to the Gulf and help with their 
perspectives, their viewpoints, and also giving them an 
opportunity to gather scientific data so we can understand not 
only how this oil spill took place, what its implications are 
with respect to the coastal region, environment, and the people 
and people's livelihoods, but also to understand things better 
so that in the future if something like this were to happen 
anywhere else, we are much better prepared as a Nation.
    We also provided resources. Our geological sciences 
directorate made sure that some of the key vessels and 
expertise were provided to the region. So NSF takes a very 
active part in this.
    We did the same thing when the tsunami struck in Japan last 
year. We put in place a RAPID mechanism so that our scientists 
have an opportunity to understand this.
    Regarding your question about how much of the money should 
go to restoration, I am not an expert.
    Mr. Palazzo. Unless you agree with me you don't have to 
make a statement for the record.
    Dr. Suresh. It is way above my pay grade. So thank you.
    Mr. Palazzo. Mr. Chairman, thank you for allowing me to go 
over, and Dr. Suresh, thank you for the NSF's participation in 
studying the oil spill. I would just like to say that this is 
going to be--we are going to have to study this for a long, 
long time to find out the true environmental consequences. So 
thank you for allowing me.
    Chairman Brooks. Thank you, Mr. Palazzo.
    Next the Chair recognizes Mr. Harris from the great State 
of Maryland.
    Mr. Harris. Thank you very much, Mr. Chairman, and thank 
you, Dr. Suresh and Dr. Bowen for appearing before the 
Subcommittee. Let me follow up a little bit with the gentleman 
from Mississippi here, Dr. Suresh, because I am still wondering 
about this SEES Program here, which is supposed to advance, 
``the climate and energy, science, engineering, and education 
to inform the societal actions needed for environmental and 
economic sustainability and sustainable human wellbeing.''
    What the heck is sustainable human wellbeing? I mean, are 
we afraid that America is going to, you know, disappear into 
some economic vacuum or--I don't get it.
    Dr. Suresh. So let me give a few examples of that, what 
they mean by that.
    Rising sea levels affecting sustainability of coastal 
regions and livelihoods is one example. Another example would 
be tsunamis, disasters. How do we prepare and what one of the 
components of SEES is a program that looks at a disaster as in 
America and what kind of science, engineering, and educational 
tools that we need. An agency like NSF should support that will 
prepare not only the scientific community but our educational 
enterprise to address how do we plan in the face of risk, 
unexpected events that take place, both natural and manmade 
events.
    Mr. Harris. Well, let us take those two because I don't 
know--what manmade events are you talking about?
    Dr. Suresh. Sustainability of urban environment, cities.
    Mr. Harris. Okay.
    Dr. Suresh. Building and cities. That is a manmade event.
    Mr. Harris. Okay, and I am not, just not sure. I guess that 
just wanders a little far from science for me, but, you know, 
the first part of your answer I could have been hearing a NOAA 
hearing where they justify their climate programs.
    Why should we fund multiple programs within the Federal 
Government that all appear in their testimony to be addressing 
exactly the same problem?
    Dr. Suresh. At first sight seemingly they may address the 
same thing, but NSF is unique in multiple respects. For 
example, we have modeling of risk using computational and data 
enable science and engineering, basic science and engineering.
    Mr. Harris. Okay. So----
    Dr. Suresh. And that is----
    Mr. Harris. Well, let me just go ahead. I only have five 
minutes. So then why should we fund NOAA? If NSF has all these 
wonderful things, why should we fund NOAA?
    Dr. Suresh. We are not in the same business as NOAA. We 
don't do weather prediction, we don't have the National Weather 
Service. We collaborate with them on projects that are 
complimentary to one another. We are not a mission agency. Our 
mission is to foster basic science and engineering.
    So the output of all NSF funds directly benefits NOAA and 
vice versa. NOAA's activities give us context and issues and 
problems that we can work together. So I don't think it is an 
overlap of activities. It is more of what one feeds into 
another, and NSF is upstream with NOAA.
    There are other things we do. NSF funds the Antarctica 
Program, and we are the lead American agency to do this. We 
help NASA, we help NOAA, we help the U.S. Geological Survey to 
do their experiments there. We provide facilities there. Again, 
it is not an overlap. It is not wasted effort. It is not a 
duplication. It is a very, very complimentary effort.
    Mr. Harris. Okay. Why, you know, I think your overall 
budget request is for five percent increase. Now, the other, 
you know, one of the other major, I would consider major 
science groups you compete with for money is the NIH, and my 
understanding is the budget was flat, level-funded for NIH.
    Why should we give the NSF an increase in the time of 
budget stress, I will be gentle saying budget stress, when, you 
know, another agency that has very valuable mission, the 
National Institutes of Health, is not getting a five percent 
increase?
    Dr. Suresh. So I cannot speak for other agencies. As head 
of NSF I can only speak for NSF. My good friend, Francis 
Collins, Director of NIH, can justify the needs that NIH. But I 
can say the following thing. NIH budget more than doubled 
between the late '90s and early part of the last decade. 
According to the America COMPETES Act, which was passed 
unanimously in the Senate, NSF budget was supposed to increase 
and double and obviously because of the financial situation we 
are in.
    Mr. Harris. Sure. What year did that COMPETES Act pass?
    Dr. Suresh. 2007.
    Mr. Harris. What was the federal debt in 2007? Do you know, 
because you probably run a lot of numbers.
    Dr. Suresh. Well, I know it is----
    Mr. Harris. Was it about half of what it is now?
    Dr. Suresh. Probably. Yes.
    Mr. Harris. Okay. So you don't expect us to make decisions 
based on an act necessarily six years when the entire fiscal 
climate of the country has changed.
    Dr. Suresh. Absolutely not. We are very much aware of the 
fact that the financial constraints at the present time forces 
us to make very tough choices, and one of the tough choices 
that we have made is----
    Mr. Harris. Is only to have a budget increase of five 
percent. I have got to tell you I just--and Mr. Chairman, I am 
going to be done in a second. You know, America is tired of 
government folks coming up and saying that a budget increase of 
five percent is a tough choice, getting an increase of five 
percent. That is what the President said in his budget, that is 
what you are saying in your budget, and I got to tell you the 
American public who is out there paying 50 cents a gallon more 
for gas, an effective cut in their family budget, is upset at 
people coming in front of this Congress and saying a five 
percent increase in my budget is a tough choice.
    I yield back the balance of my time.
    Dr. Suresh. Could I provide a response to that, Mr. 
Chairman.
    Chairman Brooks. Thank you, Mr. Harris. Sure. The Chair 
will recognize Dr. Suresh to follow up.
    Dr. Suresh. So when I said tough choices, I was referring 
to the tough choices we had to make in our priorities. So let 
me mention a few things, Mr. Harris, in response to your point.
    NSF has the mandate not only to fund all fields of science 
and engineering but also supports human capital development. 
Since 1952, we have supported 48,000 graduate students in the 
country through NSF fellowships. They have been the engines of 
innovation in this country over the last many years. So I can 
only quote an example that Mr. Norm Augustine, who authored the 
America COMPETES Act mentioned. He said, if an aircraft has an 
overweight issue, we have to reduce weight. The first thing we 
don't want to throw out is the engine, and I would like to 
point out that NSF is the innovation engine as an agency for 
the country.
    These are very difficult times. We are making very 
difficult choices in programs priorities. Our funding rate for 
research grant proposals is less; it is 20 percent this year. 
We have many, many more wonderful ideas from Americans that we 
are not able to fund because of the budget climate. Other time 
when we have competition from around the world, China's annual 
increase in research funding from 1996 to 2007 is 22 percent. 
Ours was 6.4 percent. We are the last among well-developed 
countries to fund this. We were even below the European Union, 
which has had an annual increase above the U.S. between 1996 
and 2007.
    So this is the context in which we have to look at the NSF 
budget request.
    Chairman Brooks. Mr. Harris, did you want any other follow-
up response?
    Mr. Harris. Only a comment, Mr. Chairman. The EU--you are 
right. The EU probably spent more. Just yesterday Greece was 
declared in fault. They didn't make the tough choices. I am 
afraid we are not making tough choices. I just--Dr. Suresh, the 
American public is not ready to hear that a five percent 
increase in a federal budget when we borrow $1.2 trillion next 
year, including from the Chinese, is a tough choice.
    And I yield back.
    Chairman Brooks. Thank you, Mr. Harris.
    The Chair next recognizes Mr. Lipinski for a second round 
of questions. If any other Members wish to ask a second round 
or participate in a second round, please let the Chair know.
    Mr. Lipinski. Thank you, Mr. Chairman. Certainly we do have 
tough choices to make. I am very happy that for this, the 
current fiscal year that Congress did decide that NSF was--as 
we were cutting other things, NSF was worthy because of the 
important investments we make for the country, and I hope that 
we will again on a bipartisan basis, Congress will decide that 
that is the case.
    I wanted to come back to advanced manufacturing, and I know 
in Dr. Bowen's testimony you highlight the decline in high tech 
manufacturing jobs in the United States. In the state that we 
are falling alarmingly close to being overtaken by rapidly-
increasing Asian investments and knowledge and technology in 
intensive industries to bolster their economies.
    Now, according to this year's ``S&E Indicators,'' private 
businesses do 70 percent of the R&D in this country, more than 
two-thirds of which is done by the manufacturing sector. But 
just as we have seen manufacturing jobs move abroad over the 
last 30 years, we are now seeing the R&D sponsored by U.S. 
based multinationals moving overseas as well.
    So both Dr. Bowen and Dr. Suresh, are there intrinsic 
advantages to collocating industrial R&D and manufacturing, and 
are you worried that this is happening and it is going to be 
troubling for the future of manufacturing in our country, and 
what could we do about that?
    Dr. Bowen.
    Dr. Bowen. I will make my comments short. I think Dr. 
Suresh probably has the greater depth of knowledge about this.
    It is very complicated. I believe, and I think the National 
Science Board believes that these investments that we have 
talked about to the extent the budget would allow it, produce a 
long-time underpinning of our mechanical manufacturing 
capability. Near term there are perhaps other issues, policy 
issues which could drive that.
    But long term the ability for our people to have employment 
opportunities, have the innovation that can take place in our 
universities to be utilized and transferred into the economy, I 
think the NSF role in investment and very basic fundamental 
research is a key piece of it. There are other pieces for which 
I am perhaps not fully qualified to comment about.
    Dr. Suresh. As Dr. Bowen mentioned, it is an extremely 
complex issue. NSF's role comes in many different ways. 
Fostering scientific work that leads to cutting edge tools, 
technologies, and processes, of course, that is one part of it.
    Another part is through programs like Advanced 
Technological Education, which is for community colleges, two-
year community colleges. Probably about 30 percent of that 
would have implications for advanced manufacturing. This is an 
area which we are focusing on. In fact, we would like to talk 
to other agencies to see how we can partner in new and unique 
ways. For example, the Department of Labor.
    A third potential avenue for us is with the new proposal to 
have a manufacturing initiative that NIST, Department of 
Energy, Department of Defense, and other agencies will lead. I 
have had conversations with my counterpart heads of agencies 
about how NSF could play a role in partnership with them in 
providing support for activities that further the manufacturing 
enterprise for the country.
    There are many different activities that we can focus on. 
One of the ideas that has come up is if other agencies, 
especially mission agencies and especially agencies like DOD 
with a lot of manufacturing base, can create an industry--
university partnerships in unique ways, NSF can play a role in 
supporting that in innovative ways. There are ongoing 
discussions as recently as last week.
    Mr. Lipinski. Is collocating an issue that if you are going 
to be doing your research in, if you are going to be doing your 
manufacturing in an area, you want to have the research there 
and vice versa once if the research is not going on here, that 
we are not going to have the manufacturing it could lead to 
less manufacturing?
    Dr. Suresh. I think it is very industry specific. I think 
it is very specific to the particular areas that we are dealing 
with. One recipe may not fit all, but we can look at examples 
of institutions and countries that are doing very well in this 
space.
    For example, in Germany you have different mechanisms. You 
have tracks for science based or humanities based undergraduate 
education. You have a separate track for technical education, 
and you have industries that are collocated, you have 
industries that are separated, have the manufacturing in a 
different place.
    The semiconductor industry is a good example. Even within 
the U.S. big companies like Qualcomm. Qualcomm doesn't do 
manufacturing for telephones and mobile devices. They create 
innovation. They have a different business model, and it is a 
very successful company compared to some other company in the 
semiconductor industry that may have manufacturing coupled to 
R&D activities.
    So I think I am not qualified from the industry 
perspective, especially for multiple industries, to say which 
is a better model, but there are different models that work 
successfully.
    Mr. Lipinski. Thank you. I see my time has expired.
    I yield back. Thank you, Mr. Chairman.
    Chairman Brooks. Does any other Member wish to engage in a 
second round of questions?
    Mr. Harris of Maryland, you are recognized.
    Mr. Harris. Thank you very much.
    Okay, Dr. Suresh. I am going to give you a chance to make 
up for this. What does the National--what is the National 
Science Foundation doing to literally help bring down the price 
of gas in the United States? I mean, are you partnering with 
DOE on, you know, geologic science to make drilling more 
successful, to make hydro fracturing more successful? Encourage 
me. Tell me there is something you all are doing that the 
average American who maybe is taking the time to pay attention 
what is going on here today says, you know what? They know what 
I am feeling right now, you know. Three eighty-nine a gallon 
gas. They understand, and this Administration is going to do 
something to bring down the cost of that gas.
    So convince me.
    Dr. Suresh. Thank you, Congressman Harris, for giving me 
another chance to answer the question.
    Mr. Harris. Okay.
    Dr. Suresh. I wish it were as simple as saying that NSF's 
work today will lead to a dollar a gallon drop in gas prices 
tomorrow, but unfortunately, I cannot claim that, especially as 
a scientist. I--we cannot do that. NSF's goal is to do cutting-
edge research, and we have created programs like Innovation 
Corps. The idea of Innovation Corps, the SBIR Program, all 
these programs that NSF fosters is to take cutting-edge 
scientific discoveries and move them to useful products and 
tools that benefit society as quickly as possible.
    Our mandate from Congress is still to foster basic science 
and engineering in all fields of science and engineering. That 
is the space in which we work, and if you look historically at 
the last 40 years, NSF has produced results that have created 
whole new industries. I mentioned Qualcomm earlier. The 
founders of Qualcomm received NSF support.
    Mr. Harris. Dr. Suresh, I am going to ask you to stay to 
oil, gas, coal, something that is bringing down the cost of 
energy to Americans at the pump today.
    Now, for instance, you know that hydro fracturing was a 
basic engineering, that concept is a basic engineering 
breakthrough. Did the NSF have anything to do with it, because 
I know the President has claimed somehow something the 
government did did something good for it. Was NSF involved?
    Dr. Suresh. So NSF was involved in an entire field of study 
called fracture mechanics. In fact, I was a beneficiary of it. 
I had NSF support from 1985 to 1990, where I published about 50 
papers in the area of fracture mechanics.
    Mr. Harris. I knew you could, I knew we could see eye to 
eye on something. Tell me that we are doing something like that 
now, that we have not, in fact, neglected an entire field of 
energy research in search of a holy grail that we are not going 
to achieve. So tell me that something besides solar and wind 
and something going on at the NSF that is actually practical to 
advance our standing in the world as energy producers using the 
natural resources of fossil fuels that we have here in the 
country.
    Dr. Suresh. So NSF continues to support through the 
engineering directorate, through the geological sciences 
directorate, and other programs and activities that benefit 
hydraulic fracturing.
    Mr. Harris. Can you give me an example? Concrete example.
    Dr. Suresh. I will be happy to----
    Mr. Harris. If you could----
    Dr. Suresh. --provide specific projects that we fund. In 
the area of SEES, in clean energy activities, we have programs 
that support novel fuel cells, wind energy, solar energy, 
across disciplines. So there are many, many ongoing activities 
at NSF that support all of this which directly and indirectly, 
some near term, some long term, provide opportunities to move 
in the direction of energy sustainability, and NSF plays a key 
role in this.
    Mr. Harris. Well, let us talk a little about energy 
sustainability. I mean, because the sustainability word is 
important, and it is emotionally charged. I mean, the data I 
have seen is, you know, our known natural gas reserves that we 
can produce, not even known reserves, are over 100 years. Now, 
that is pretty sustainable to me.
    So, again, is there an emphasis at NSF saying, okay, we are 
talking about sustainability, we now know that we have at least 
100 years of natural gas that we could unlock. We do have 
technical difficulties. I will admit. I mean, you know, the 
hydro fracturing technique is good. Every one of these 
techniques can get better.
    Again, is there an emphasis at the NSF or is this part or 
is the NSF engaging in the, what seems to be an Administration-
wide effort to put our resources into every other single source 
of energy except fossil fuel, or has the NSF like the NIH kind 
of stepped back and say, we are not letting politics play. This 
is science. This is not politics, because I will tell you, 
Doctor, I am kind of disappointed that you roll out solar stuff 
and fuel cell, this fuel cell, and you can't give me a concrete 
example of a single project that NSF is funding right now that 
will make it easier, safer, better, cheaper to deliver fossil 
fuel to the American consumer like gasoline.
    Dr. Suresh. So we have projects in our materials division, 
division of materials research, for example, that look at new 
materials for drilling. That project has been funded for many 
years through a variety of programs. That is an example.
    Mr. Harris. I knew we would see eye to eye eventually. If 
you could get me that, I would appreciate that, and I yield 
back my time.
    Dr. Suresh. I will be happy to give you a lot more 
examples.
    Mr. Harris. Thank you very, very much.
    Chairman Brooks. Any other Members who wish to go through a 
second round of questions?
    Seeing none, I thank the witnesses for their valuable 
testimony and the Members for their questions. It has been a 
very lively and informative discussion.
    The members of the Subcommittee may have additional 
questions for the witnesses, and we will ask you to respond to 
those in writing. The record will remain open for two weeks for 
additional comments from members. The witnesses are excused, 
and this hearing is adjourned.
    [Whereupon, at 11:28 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Subra Suresh, Director, National Science Foundation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Ray Bowen, Chairman, National Science Board



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

           Response requested by Representative Andy Harris,
               Committee on Science, Space and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                   <all>


</pre></body></html>
